No. 20-6972

 

 

IN THE

Supreme Court of the United States

MARK ALLEN JENKINS,

Petitioner,
v.

JEFFERSON S. DUNN, COMMISSIONER,
ALABAMA DEPARTMENT OF CORRECTIONS,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

Brief of Amici Curiae Disability Organizations
in Support of Petitioner

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,795 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

A,

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.

  
